Law Office of

Eric Alan Isaacson

6580 Avenida Mirola, La Jolla, CA 92037-6231
ericalanisaacson@icloud.com
858-263-9581

July 18, 2019
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Lilley, et al. v. New Hampshire, No. 19-64

Dear Mr. Harris,
I represent the Petitioners in the above-referenced case. Under Rule
37.2(a), Petitioners consent to the filing of amicus briefs in support of either
or of neither party at the certiorari stage.
Respectfully submitted,

Eric Alan Isaacson
Counsel for Petitioners Heidi C. Lilley,
Kia Sinclair, and Ginger M. Pierro
cc: Susan McGinnis,
Senior Assistant Attorney General of New Hampshire
(by U.S. mail & email)

